No. 20-6199

1Jn tlp~ §upreme Qtourt of tqe llniteh §fates
JACOB TOWNLEY HERNANDEZ, Petitioner,
V.

SUZANNE M. PEERY, WARDEN, Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33. l(h), I certify that the BRIEF IN
OPPOSITION contains 5,148 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33. l(d) .
I declare under penalty of perjury that the foregoing is true and correct.
Dated: March 8, 2021
Respectfully submitted,
XAVIER BECERRA
Attorney General of California

~~,~~

JILL M.

THAYER
Deputy Attorney General

Counsel of Record
Counsel for Respondent
SF2021400035
42581738 .docx

